BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief for
Amici Curiae Arizona, Alabama, Alaska, Arkansas,
Florida, Georgia, Idaho, Indiana, Kansas, Louisiana,
Mississippi, Missouri, Montana, Nebraska, North
Dakota, Ohio, Oklahoma, South Carolina, South
Dakota, Tennessee, Texas, Utah, and West Virginia in
20-601, Daniel Cameron, Attorney General, on behalf
of the Commonwealth of Kentucky v. EMW Women's
Surgical Center, P. S. C., on behalf of itself, its staff, and
its patients, et al., was sent via Two Day Service to the
U.S. Supreme Court, and via Two Day and e-mail
service to the following parties listed below, this 21st
day of June, 2021:
Andrew D. Beck
American Civil Liberties Union Foundation
125 Broad Street, 18th Floor
New York, NY 10004
(212) 519-7845
abeck@aclu.org
Counsel for Respondents EMW Women's
Surgical Center, P.S.C.; Ashlee Bergin;
Tanya Franklin

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive

I Suite 102

Cincinnati, Ohio 45249

I

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Wesley W. Duke
Kentucky Cabinet for Health & Family Services
Office of Legal Services
275 East Main Street
Room 5W-A
Frankfort, Kentucky 40621
(502) 564-7042
WesleyW.Duke@ky.gov
Counsel for Respondent Kentucky Cabinet for
Health & Family Services
Matthew F. Kuhn
Counsel of Record
Principal Deputy Solicitor General
Office of the Kentucky Attorney General
700 Capital Avenue, Suite 118
Frankfort, KY 40601
(502) 696-5300
Matt.Kuhn@ky.gov
Counsel for Petitioner
Brunn W. Roysden III
Solicitor General
Counsel of Record
Office of the Arizona Attorney General
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-5025
beau.roysden@azag.gov
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 21, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

h ki-t /.2.1

~

Notary Public

=

[seal]

AMY TRIPLETT MORGAN

Attorney at Law
Notary Public, Stale of Ohio
My Commission Has No Expiratio,
Dale. Section 147.03 O.R.C

